                                             NATIONAL SCIENCE FOUNDATION 

                                              OFFICE OF INSPECTOR GENERAL 

                                                OFFICE OF INVESTIGATIONS 


                                        CLOSEOUT MEMORANDUM

Case Number: Al1030016                                                               Page 1 of 1




        OIG opened this investigation based on information provided that an NSF IPA
        employee 1 had engaged in improper lobbying activities and violated time and
        attendance and telecommuting policies.

        No evidence was found to support the allegations, thus no further investigative activity is
        warranted.

        This investigation is closed.




NSF OIG Fonn 2 (11/02)
